No. 19-361
IN THE

RENADO SMITH AND RICHARD DELANCY,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
BRIEF OF CRIMINAL DEFENSE
ORGANIZATIONS AS AMICI CURIAE IN
SUPPORT OF PETITIONERS

Thomas C. Goldstein
Counsel of Record
Daniel Woofter
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTEREST OF AMICI CURIAE ................................. 1
SUMMARY OF ARGUMENT ..................................... 2
ARGUMENT ................................................................ 6
I.

The Government Failed To Show That Its
Witness Was “Unavailable” To Testify At
Trial, So Admitting Her Prior Testimony
Into Evidence Violated Petitioners’
Confrontation Rights............................................. 6
A. The Government Cannot Establish That
Its Witness Is “Unavailable” When It
Negligently Allowed Her To Abscond ............ 6
B. The Government Failed To Show That It
Made Good Faith Efforts To Locate Its
Witness ......................................................... 10

II. The Decision Below Unfairly Prejudices
Defendants........................................................... 18
A. The Panel Majority Impermissibly
Shifts The Government’s Evidentiary
Burden To Criminal Defendants ................. 18
B. The Panel Majority Creates Perverse
Incentives For The Government .................. 21
CONCLUSION .......................................................... 24

ii
TABLE OF AUTHORITIES
Cases
Barber v. Page,
390 U.S. 719 (1968) .............................. 11, 12, 17, 18
California v. Green,
399 U.S. 149 (1970) ................................................ 11
Crawford v. Washington,
541 U.S. 36 (2004) .......................................... passim
Hardy v. Cross,
565 U.S. 65 (2011) ........................................ 4, 15, 19
Mancusi v. Stubbs,
408 U.S. 204 (1972) ................................................ 13
Mattox v. United States,
156 U.S. 237 (1895) .......................................... 17, 22
Motes v. United States,
178 U.S. 458 (1900) ...................................... 3, 7, 8, 9
Ohio v. Roberts,
448 U.S. 56 (1980) .......................................... passim
United States v. Burden,
934 F.3d 675 (D.C. Cir. 2019) .................. 6, 9, 11, 21
United States v. Mann,
590 F.2d 361 (1st Cir. 1978) ............................ 10, 22
United States v. Tirado-Tirado,
563 F.3d 117 (5th Cir. 2009) .............................. 6, 22
United States v. Yida,
498 F.3d 945 (9th Cir. 2007) .................................... 9
Constitutional Provisions
U.S. Const. amend. IV ............................................... 21
U.S. Const. amend. VI ................................. 4, 7, 17, 21

iii
Rules
Fed. R. Evid. 804(a)(5) ............................................... 10
Sup. Ct. R. 37 ............................................................... 1
Other Authorities
Roy L. Austin, Jr. et al., Prosecution and Public
Defense: The Prosecutor’s Role in Securing a
Meaningful Right to an Attorney (Mar. 2019),
http://bit.ly/2B37gnz .............................................. 20

1
INTEREST OF AMICI CURIAE1
Amici are organizations whose members represent a broad cross-section of the criminal defense bar.
All have a strong interest in this case because the opinion below unfairly disadvantages amici’s clients in defending their cases against the Government, and incentivizes federal and state prosecutors to declare as
“unavailable” the witnesses whom defendants most
need to cross-examine live in front of a jury. Amici are:
National Association for Public Defense
Alabama Criminal Defense Lawyers Association
Arizona Attorneys for Criminal Justice
Association of Criminal Defense Lawyers of New
Jersey
California Attorneys for Criminal Justice
District of Columbia Association of Criminal
Defense Lawyers
Georgia Association of Criminal Defense Lawyers
Human Rights Defense Center
The Innocence Project
National Legal Aid & Defender Association
Neighborhood Defender Service of Harlem
Office of the Defender General in Vermont

1

Pursuant to Supreme Court Rule 37, counsel for amici represent that they authored this brief in its entirety and that none
of the parties or their counsel, nor any other person or entity
other than amici or their counsel, made a monetary contribution
intended to fund the preparation or submission of this brief. All
parties have consented to the filing of this brief, and counsel for
all parties received timely notice of amici’s intent to file.

2
SUMMARY OF ARGUMENT
The Government was allowed to play a prerecorded deposition of its primary, crucial witness to
the jury, even though it had negligently allowed her to
abscond before trial and then failed to pursue a fresh
lead that she was living with her boyfriend in Delaware. The Government said that one reason it did not
try to find the boyfriend’s address using a routine database search (at essentially no cost) was because the
Government already had its witness’s testimony in
hand. A split panel of the Court of Appeals for the
Eleventh Circuit affirmed the admission of the evidence, finding that the witness was unavailable. As
thoroughly set forth in the petition, the opinion deepens several well-developed splits worthy of this Court’s
attention. See Pet. 13-25. This brief focuses on the
panel majority’s legal errors, which greatly disadvantage amici—who represent a broad cross-section of
the criminal defense bar—and, more importantly,
their clients. The Court should grant the petition and
reverse.
I. Under this Court’s precedents, testimonial
statements of absent witnesses may be admitted at
trial only if the declarant is unavailable and the defendant had a prior opportunity to cross-examine.
Crawford v. Washington, 541 U.S. 36, 59 (2004). The
panel majority erred in holding that the Government
met its burden to prove that its witness was unavailable to testify at trial.
A. For a witness to be considered “unavailable”
because the witness cannot be found, the proponent of
the witness’s testimony must show that it could not
produce the witness despite good faith, i.e., reasonable
efforts to secure its witness’s attendance at trial. But

3
here, the panel majority excused the Government’s error in “mistakenly” releasing its witness from custody
after obtaining her deposition testimony, even though
it had not taken any steps to ensure her attendance at
trial. This Court has long held that a Government witness’s unavailability cannot be caused by its own misconduct, any more than a defendant may admit the
out-of-court testimony of a defense witness who is unavailable due to the actions of the defendant. Motes v.
United States, 178 U.S. 458, 471 (1900). When the
Government is the reason its own witness cannot be
found, it must procure the witness for trial or it cannot
present that witness’s testimony. In conflict with
Motes, which is squarely on point, the panel majority
improperly holds the Government to a different evidentiary burden than defendants by excusing the Government’s negligence in allowing its witness to abscond.
B. Even had the Government not negligently
caused its witness to become unavailable, the panel
majority erred in finding that the Government made
reasonable efforts to re-secure its witness when it
failed to pursue a fresh lead that had a reasonable
chance of leading to her, even though doing so would
involve little time or money. The witness’s former lawyer told the Government that its witness was with her
boyfriend in Delaware. And the lawyer gave the Government the boyfriend’s name and cellphone number.
Yet the Government did not even attempt to run a routine law-enforcement database search to see whether
it could obtain the boyfriend’s address. Contrary to the
opinion below, this Court’s precedents require, at minimum, the Government to pursue a hot lead by taking
minimally costly “affirmative measures” that have a

4
reasonable chance of success. See Hardy v. Cross, 565
U.S. 65, 71 (2011) (per curiam); Ohio v. Roberts, 448
U.S. 56, 74 (1980), abrogated on other grounds by
Crawford, 541 U.S. at 61-62.
The Government compounded its error by deciding not to pursue the lead because, in part, it already
had its witness’s deposition testimony. So too the
panel majority, which took into account the existence
of the prior deposition testimony in determining that
the Government’s efforts were reasonable. In other
words, the panel majority erred by finding that the
Government did not need to make the same efforts to
find its witness as it would have had it not had the
prior-recorded deposition. Nothing in this Court’s
precedents allows the existence or quality of the prior
testimony to lower the Government’s burden of proving unavailability.
II. A. Aside from being untethered from Confrontation Clause doctrine, the panel majority’s opinion de
facto shifts the Government’s burden of proving unavailability to defendants, who essentially have to show
that the Government’s efforts were unreasonable.
Here, the Government does not dispute that attempting to locate the witness’s boyfriend might be fruitful
and could be accomplished at minimal cost. Indeed,
the Government seemed to believe she was with her
boyfriend in Delaware. Rather, it was the panel majority who mused that such efforts might be unsuccessful,
and thus held the Government was not required to try.
Defendants are not in a position to prove that the Government could have been successful in making additional efforts, making this burden shift clearly prejudicial. This is especially concerning for amici, whose

5
members and their clients already suffer from vast resource disadvantages in defending their clients
against the Government.
B. The panel majority’s opinion also creates perverse incentives for the Government. In excusing the
Government’s failure to chase promising leads at minimal cost by looking in isolation at the few efforts the
Government did make, the panel majority incentivizes
the Government to obtain a witness’s testimony beforehand, then let that witness go with no plan to secure her attendance at trial. But the Government witnesses that most demand cross-examination before a
jury are the very witnesses the Government is incentivized to declare “unavailable” for confrontation purposes. The Eleventh Circuit’s framework eviscerates
the core trial right of the accused to confront witnesses
against them. As organizations who advocate in this
sphere, and whose members are involved in criminal
defense work day to day, amici are uniquely situated
to highlight the real-world impact the panel majority’s
framework will have on the ability of the accused to
test the veracity of the Government’s witnesses.

6
ARGUMENT
I.

The Government Failed To Show That Its
Witness Was “Unavailable” To Testify At
Trial, So Admitting Her Prior Testimony
Into Evidence Violated Petitioners’ Confrontation Rights.
A. The Government Cannot Establish That
Its Witness Is “Unavailable” When It
Negligently Allowed Her To Abscond.

The Government’s “essential witness to th[e]
case,” Pet. App. 152a-153a, a Haitian national, was
brought into the United States and detained by Immigration and Customs Enforcement (ICE) to be interviewed in connection with petitioners’ allegedly criminal conduct, id. at 2a, 8a. After she gave her deposition, the material witness complaint against her was
dismissed, and the Government had 48 hours to enforce an immigration detainer that ICE had lodged
against her. Id. at 10a. However, the Government did
not pick up or detain her in that time, so she was released from custody—without any effort by the Government to obtain her contact information or address,
nor any other measures to ensure that she would appear at petitioners’ trial.2 Ibid. Because the Govern-

2

Amici take no position on what steps the Government would
have needed to take had it deported its witness for her deportation to render her “unavailable.” Cf. United States v. Burden, 934
F.3d 675, 686 (D.C. Cir. 2019) (when the Government “deport[s]
the witness, [it] will have to make greater exertions to satisfy the
standard of good-faith and reasonable efforts than it would have
if it had not played any role”); United States v. Tirado-Tirado, 563

7
ment allowed the witness to abscond by making absolutely no effort before releasing her to ensure that she
would be available to testify at trial, it cannot meet its
burden of proving that the witness was “unavailable”
such that her deposition testimony could be admitted
into evidence, as required by the Confrontation
Clause, U.S. Const. amend. VI.
There is no real dispute in this case that the Government “mistakenly released” its witness. See Pet.
App. 10a n.2 (panel majority describing that the Government “mistakenly released” the witness); id. at 72a
(dissent noting that the Government “accidentally” released its witness); id. at 113a (district judge describing the witness as “mistakenly released by the US
Government”). And there is no dispute that the Government made no concrete arrangements at the time
of release to try to ensure her attendance.
This Court has long held that when the Government witness’s “absence was manifestly due to the
negligence of the officers of the Government,” the admission into evidence of that witness’s prior testimony
is “in violation of the constitutional right of the defendants to be confronted with the witnesses against
them.” Motes v. United States, 178 U.S. 458, 471
(1900). This case is materially indistinguishable.

F.3d 117, 123-24 (5th Cir. 2009) (witness not unavailable despite
his deportation back to Mexico, because the Government had
made no concrete arrangements to have the witness testify at
trial and failed to make reasonable efforts thereafter to secure his
attendance). Rather, amici clarify that the crucial fact here is that
the Government released the witness without first taking any
steps (let alone reasonable steps) to secure her attendance at
trial.

8
In Motes, like here, the Government witness was
in its custody. 178 U.S. at 468. Moreover, in Motes, like
here, the Government released the witness from its
custody without any plan for ensuring its witness’s attendance at trial. Ibid. And just like here, the testimony was otherwise admissible because “all of the defendants . . . had an opportunity to cross-examine” the
witness and the witness had “in fact” been cross-examined. Id. at 468-69. Importantly, the Court in Motes,
unlike the panel majority here, refused to give the
Government a pass even though the Government
made post-release efforts to re-secure the witness,
holding that admitting the testimony violated the defendants’ confrontation rights. Id. at 474.
The panel majority below glossed over the fact
that the Government was partly responsible for its
witness’s absence from petitioners’ trial. According to
the panel majority, after the Government’s witness
was “mistakenly released,” it “was reasonable for the
government to try to locate [her].” Pet. App. 28a. No
doubt. But the panel majority was wrong to go a step
further, and hold that the Government’s post-negligence efforts were sufficient to render her unavailable
for purposes of admitting her deposition into evidence.
This Court has never held that after-the-fact efforts
can cure the Government’s negligence in causing the
unavailability.
Take the Government’s post-release efforts in
Motes, as described by this Court:
The United States marshal testified on behalf
of United States that he had instructed his
deputies that Taylor had escaped; that he had
offered a reward of two hundred dollars for
his arrest; that he had made diligent search

9
in the city of Birmingham for Taylor, and
could not learn anything as to his whereabouts. . . . The United States then offered as a
witness a deputy sheriff, who testified that
the sheriff of Jefferson County and his deputies had been on the lookout for Taylor ever
since his absence was known; that they had
had photographs taken of him and sent them
to various places, and that the deputies had
been on the lookout for him all over Birmingham and other parts of Jefferson county, and
that they had been unable to find him anywhere.
178 U.S. at 469. (Note, the Government’s efforts in this
case were far less extensive, see infra Part I.B.) It was
apparently of no moment to this Court that the Government, after having negligently released the witness, expended great effort in attempting to re-secure
him. Neither should the Government’s attempts in
this case to re-secure its witness excuse its negligence
in allowing her to abscond in the first place. Rather,
Motes requires that if the Government is the reason its
own witness is unavailable, it must find a way to procure the witness for trial or the witness’s testimony
cannot be entered into evidence.
At the very least, as some circuits have held, the
Government must “make greater exertions to satisfy
the standard of good-faith and reasonable efforts”
when it “itself bears some responsibility for the difficulty in procuring the witness” than “it would have if
it had not played any role” at all. United States v. Burden, 934 F.3d 675, 686 (D.C. Cir. 2019); United States
v. Yida, 498 F.3d 945, 955-56 (9th Cir. 2007) (“[T]he

10
appropriate time-frame [for assessing the government’s actions] should not be limited to the government’s efforts to procure [its witness]’s testimony after
it let him be deported, but should instead include an
assessment of the government’s affirmative conduct
which allowed [him] to be deported . . . in the first instance.”); United States v. Mann, 590 F.2d 361, 368
(1st Cir. 1978) (“Implicit . . . in the duty to use reasonable means to procure the presence of an absent witness is the duty to use reasonable means to prevent a
present witness from becoming absent.”). It would be
especially unfair to excuse the Government’s failure to
ensure its witness’s attendance at trial, when defendants will presumably not be afforded the same courtesy. See Fed. R. Evid. 804(a)(5) (hearsay exception for
unavailable witnesses “does not apply” if proponent
“procured or wrongfully caused” the declarant’s unavailability to prevent declarant from attending trial).
On top of being untethered doctrinally from the decisions of this Court, the Eleventh Circuit unfairly advantages the Government. See also infra Part II.
B. The Government Failed To Show That It
Made Good Faith Efforts To Locate Its
Witness.
Even if the Government had not negligently
caused its witness’s unavailability, it failed to make
reasonable efforts to secure her attendance at trial.
And the Government’s burden to make reasonable efforts is not at all lowered merely because the witness’s
out-of-court testimony was given in a cross-examined
deposition, as the Government’s agent and the panel
majority believed.

11
1. This Court held in Barber v. Page, 390 U.S. 719
(1968) that “a witness is not ‘unavailable’ for purposes
of the [unavailability] exception to the confrontation
requirement unless the prosecutorial authorities have
made a good-faith effort to obtain his presence at
trial.” Id. at 724-25. In cases where, like here, “there
is a possibility, albeit remote, that affirmative
measures might produce” the witness, the “ultimate
question is whether the witness is unavailable despite
good-faith efforts undertaken prior to trial to locate
and present that witness.” Ohio v. Roberts, 448 U.S.
56, 74 (1980), abrogated on other grounds by Crawford
v. Washington, 541 U.S. 36 (2004). “The lengths to
which the prosecution must go to produce a witness
. . . is a question of reasonableness.” Ibid. (quoting California v. Green, 399 U.S. 149, 189 n.22 (1970) (Harlan, J., concurring)) (alteration in original).3
This Court’s decisions in Barber and Roberts are
informative. In Barber, the State of Oklahoma sought
to introduce the prior testimony of a witness who was,
at the time of trial, incarcerated in a federal penitentiary in Texas, and thus “outside the jurisdiction” of

3

In this section, amici rely solely on this Court’s cases in
which the witnesses were unavailable due to no fault of the Government. These precedents are more than sufficient to show that
the Government’s efforts in this case were not reasonable—setting aside the fact that the Government was partly responsible
for its witness’s absence. To the extent that the Government’s
“mistaken” release is also factored into the analysis, the Government fell even shorter of its burden. See supra pp.9-10 & note 2
(citing circuit cases like Burden, 934 F.3d at 686, that require the
Government to make “greater exertions to satisfy the standard of
good-faith and reasonable efforts” when it “itself bears some
responsibility for the difficulty in procuring the witness”).

12
the State. 390 U.S. at 720. The court of appeals “reasoned that because the State would have had to request an exercise of discretion on the part of federal
authorities, it was under no obligation to make any
such request” to establish unavailability. Id. at 724.
This Court flatly rejected the notion.
According to the Court, “the sole reason why [the
State’s witness] was not present to testify in person
was because the State did not attempt to seek his presence,” and the “right of confrontation may not be dispensed with so lightly.” 390 U.S. at 725. The “possibility of a refusal” by the federal authorities “is not the
equivalent of asking and receiving a rebuff,” so the
State was required to ask. Id. at 724-25 (internal quotation marks omitted). In other words, this Court concluded that the State’s witness was not unavailable
even though he was outside the State’s jurisdiction—
the State was required to make the minimal effort of
asking the federal authorities for assistance in procuring the witness to testify in the state trial.
In Roberts, this Court held that the prosecution
had made good faith efforts to locate the witness, because none of the Government’s other leads were remotely likely to produce the witness; the “law does not
require the doing of a futile act.” See 448 U.S. at 74. In
Roberts, unlike here, there was “no clear indication, if
any at all, of [the witness’s] whereabouts.” Id. at 76.
And “the great improbability that [additional] efforts
would have resulted in locating the witness, and would
have led to her production at trial, neutralize[d] any
intimation that a concept of reasonableness required
their execution.” Ibid. As the dissent below aptly describes the situation in Roberts—“the trail had effec-

13
tively gone cold for the missing witness: the government’s most recent information about the witness’s
whereabouts was seven-to-eight months old, and the
government knew only generally that the witness was,
at that time, traveling outside Ohio.” Pet. App. 97a
(Rosenbaum, J., concurring in part and dissenting in
part).
In this case, there is no question that the Government’s witness was within its jurisdictional reach. 4
Compare Mancusi v. Stubbs, 408 U.S. 204, 212 (1972)
(witness was unavailable after moving to Sweden
where the State “was powerless to compel his attendance at the second trial, either through its own process
4

The panel majority tries to obfuscate this fact by reasoning
that the Government would have had to coordinate its efforts to
find and secure the witness for trial:
Miami federal officials would have had to secure the
ready help of either their federal [Homeland Security
Investigations (HSI)] counterparts, or state law enforcement, in Delaware to attempt to find the boyfriend
at that street address. The federal HSI agents, or state
law enforcement, in Delaware would then have had to
get lucky and actually find the boyfriend at that address, and then persuade him to reveal [the witness’s]
whereabouts so they could more formally serve the
trial subpoena on [her]. Assuming that the boyfriend
would help them find the girlfriend he had presumably
been hiding, ICE [Enforcement and Removal Operations], which had the detainer, would have to be on the
spot at just the right moment to grab her, else [the witness] would once again go on the run.
See Pet. App. 46a-47a. But this is the federal government. It cannot be the rule that the largest prosecuting sovereign with the
most resources and the furthest reach is excused, based on those
very attributes, for failing to chase down reasonable leads within
its jurisdiction.

14
or through established procedures depending on the
voluntary assistance of another government”). And
unlike in Roberts, the Government in this case failed
to pursue a fresh, promising lead to find its witness—
not stale leads with no real chance of success: the Government had it on good authority that its witness was
staying with her boyfriend, and that her boyfriend
lived in Delaware. See Pet. App. 28a (panel majority
noting that the witness’s boyfriend was “reportedly in
Delaware”); id. at 72a (dissent noting that the witness’s “attorney informed the government that [the
witness] was in Delaware with her boyfriend”). The
Government even had her boyfriend’s name and cellphone number.
But instead of “running a basic, routine, quick,
and inexpensive database search of the boyfriend’s
name to ascertain his address . . . the government did
no more than just engage in minimal efforts to twice
call and once text the boyfriend,” Pet. App. 78a (Rosenbaum, J., concurring in part and dissenting in part),
and relied on the witness’s former attorney to forward
a subpoena to the boyfriend by email, with the hope he
would pass it along to the witness, id. at 72a-73a. Indeed, “[n]o evidence suggests the government took
even five minutes to check for the boyfriend’s profile
on Facebook, Twitter, or Instagram, or to punch his
name into Google to see what those quick searches
could dredge up.” Id. at 78a. And when asked by the
trial judge during trial whether the Government had
run the boyfriend’s name through any database or otherwise made any attempt to find his address, the case
agent replied “Not yet.” Id. at 73a.
There is little question that had the Government
not had its witness’s deposition, it would have made

15
more of an effort to find her. The Government admits
as much. At the trial court, the Government’s agent
responded that one of the reasons it had not made any
effort to ascertain the boyfriend’s address in Delaware
was “because [he] assumed that [the witness had] already given the videotaped deposition,” so he “didn’t
really need to try to find her.” Pet. App. 51a n.18. But
she was “an essential witness to this case.” Id. at 152a53a. And the fundamental point of Roberts is that the
Government must take reasonable “affirmative
measures” that have even a “remote” possibility of success. Roberts, 448 U.S. at 74; see Hardy v. Cross, 565
U.S. 65, 71 (2011) (per curiam) (state court not unreasonable in finding that the State was not required to
take “additional steps” to find a witness when there
was “no reason to believe” such efforts would be successful).
To be sure, the Government need not “exhaust
every avenue of inquiry, no matter how unpromising.”
Hardy, 565 U.S. at 71-72. But at minimum, when, as
here, the Government has a promising lead to locate
the witness, and pursuing that lead would require
minimal effort, the Government must pursue it to
show that it made reasonable, good faith efforts. Instead of holding the Government to that low burden,
the panel majority excused the Government’s failure
to take minimal steps by looking in isolation at the few
efforts that had previously been made. See Pet. App.
at 43a-44a (accusing the dissent of “Monday-morning
quarterbacking” in light of the actions the Government took).
Of course, making some efforts to pursue a lead
does not excuse the Government’s failure to take other

16
obvious and promising steps that require minimal resources. Consider the following example: the Government gets a tip that its witness is staying with either
her uncle or her boyfriend. It would assuredly fail to
satisfy Roberts if the Government located her uncle’s
residence and checked there, but after failing to find
her at her uncle’s ignored the part of the tip about her
boyfriend. Under the panel majority’s reasoning, the
Government’s efforts would be sufficient because they
did something. Pet. App. 44a (rejecting that the Government had to do a routine database search for the
boyfriend’s address because “this is not a case where
the government took no action when presented with a
new lead”). This Court’s precedents require more of
the Government to prove its witness is unavailable.
2. Relatedly, the panel majority erred in folding
into the unavailability inquiry the fact that the witness was previously subject to cross-examination. According to the panel majority, “neither the case agent,
nor the prosecutor, nor this Court is required to pretend [that the witness] was never deposed for the express purpose of having her deposition presented at
trial,” distinguishing “testimony presented at a preliminary hearing or on the off-chance the witness
might become unavailable later.” Pet. App. 52a. The
panel majority believed that although “prior cross-examination alone cannot substitute for the government’s burden to establish a witness is unavailable,”
that fact “is relevant and important.” Id. at 52a-53a
(emphasis added).
But it is not a relevant fact at all. And it shouldn’t
be. Meeting Crawford’s minimum requirement of prior
opportunity to cross-examine has nothing to do with
the Government’s completely unrelated burden to

17
show it took reasonable steps to secure its witness for
trial. See 541 U.S. at 55 (“prior opportunity to crossexamine” is “a necessary” but not “sufficient . . . condition for admissibility of testimonial statements”).
And there is no exception to this rule for particularly good-quality cross-examination. Certainly Crawford makes no such distinction among different kinds
of cross-examined testimony. The Court did not say,
for example, that “particularly good cross-examination
is relevant to how hard the Government needs to try
to re-secure its lost witness.” On the contrary, the
Court expressly eschewed a “general reliability exception” to the confrontation right of defendants to face
their accusers in court. 541 U.S. at 62 (abrogating Roberts on this score); Barber, 390 U.S. at 725 (the “right
to confrontation is basically a trial right,” which “includes both the opportunity to cross-examine and the
occasion for the jury to weigh the demeanor of the witness”) (emphasis added).
The confrontation exception for unavailable witnesses is just that—an exception. Implicit in this exception is a historical “preference for face-to-face accusation.” Roberts, 448 U.S. at 65. As this Court stated
long ago, the “primary object” of the Confrontation
Clause was to provide the accused
an opportunity, not only of testing the recollection and sifting the conscience of the witness, but of compelling him to stand face to
face with the jury in order that they may look
at him, and judge by his demeanor upon the
stand and the manner in which he gives his
testimony whether he is worthy of belief.
Mattox v. United States, 156 U.S. 237, 242-43 (1895).

18
No out-of-court cross-examination is a substitute
for compelling the witness “to stand face to face with
the jury,” and it is manifestly inappropriate to consider the existence or quality of prior testimony in determining whether the Government has met its burden of showing that the witness is unavailable.
II. The Decision Below Unfairly Prejudices
Defendants.
A. The Panel Majority Impermissibly Shifts
The Government’s Evidentiary Burden
To Criminal Defendants.
“As with other evidentiary proponents, the prosecution bears the burden of establishing” that its witness is unavailable. Roberts, 448 U.S. at 74-75. As previously discussed, when “there is a possibility” that the
witness may be found and called to testify at trial, this
means the prosecution bears the burden of establishing that it made reasonable, good-faith efforts to secure the witness’s attendance. Ibid.; Barber, 390 U.S.
at 724-25.
As the dissent below correctly reproves, see Pet.
App. 85a-88a, the panel majority’s opinion—which excuses the Government’s failure to take reasonable,
non-costly steps to pursue a promising lead—de facto
shifts the burden to criminal defendants—who effectively now have to prove that the Government’s actions were unreasonable. Petitioners should not have
had to show that trying to find the address of the witness’s boyfriend had a sufficiently promising chance of
leading to the witness. How could they? Defendants
cannot prove that the Government is not simply going
through the motions to clear the minimal bar set by

19
the panel majority. Rather, under this Court’s precedents, the Government was required to show it had “no
reason to believe” that finding the boyfriend’s address
would lead to the witness. See Hardy, 565 U.S. at 71;
Roberts, 448 U.S. at 74.
The Government never gave any reason to doubt
that a routine database search would turn up the boyfriend’s address. Neither did the Government show
that there was any doubt that the witness was staying
with her boyfriend. Far from it: the Government attempted to send a subpoena to her through him. Pet.
App. 86a (Rosenbaum, J., concurring in part and dissenting in part). Rather than hold the Government to
its burden, the panel majority tries to do the Government’s job for it, stating that although attempting to
locate the boyfriend “might” have led to the witness,
“the record contains no evidence that the boyfriend
ever had an address in Delaware or that a database
search would have revealed an address for him in Delaware,” and that criticizing the Government for what
it did not do was “Monday-morning quarterbacking.”
Id. at 42a-43a (majority opinion). But of course no record evidence conclusively establishes the boyfriend’s
whereabouts—the Government did not attempt even
minimal efforts to locate him. Thus, there was simply
nothing to “Monday-morning quarterback,” because
the Government made no plays at all. And unlike the
Government, petitioners could not themselves search
law-enforcement databases for the witness’s boyfriend’s address. Nor could they do anything even if
they had found it.
All we have are the panel majority’s musings as to
why searching for the boyfriend might not have been
fruitful. Moreover, the panel majority draws out and

20
exaggerates the effort the Government would have
had to expend to succeed. See supra note 3. Thus “it is
unclear,” according to the court, “why [the Government agent] would think that even if he got lucky and
found the boyfriend’s address in Delaware, the latter
would reveal [the witness]’s whereabouts and help
ICE snatch and jail her,” given previously unsuccessful efforts to locate the witness at her uncle’s home.
Pet. App. 46a. Obviously, it is “unclear” because the
Government itself never made the argument, and petitioners have no realistic way to disprove the negative.
The panel majority’s decision is a problem for all
defendants, especially the indigent. According to recent data, there are about 1,000 public defender officers at the state and local levels with about 15,000 litigation attorneys receiving over 4 million indigent defense cases a year, and only an average of about 10
percent of the total state judicial-legal expenditures go
to indigent defendants. Roy L. Austin, Jr. et al., Prosecution and Public Defense: The Prosecutor’s Role in
Securing a Meaningful Right to an Attorney 2 (Mar.
2019), http://bit.ly/2B37gnz. Under the Eleventh Circuit’s framework, criminal defendants, who already
suffer a resource disadvantage in defending their
cases, have no realistic way to dispel the doubts that
will be raised by the courts (not the Government, even
though it is the Government’s burden). The prejudice
this burden shift exacts on defendants exemplifies the
wisdom in requiring the Government to affirmatively
prove that it made all reasonable efforts to locate its
missing witnesses—which is exactly what this Court’s
precedents require.

21
B. The Panel Majority Creates Perverse
Incentives For The Government.
This Court’s confrontation precedents portend
that
When the government seeks to rely on prior
recorded statements of a witness on the
ground that the witness is unavailable, it
bears the burden of establishing that its unsuccessful efforts to procure the witness’s appearance at trial were as vigorous as that
which the government would undertake to
[secure] a critical witness if it has no [prior]
testimony to rely upon in the event of “unavailability.”
Burden, 934 F.3d at 686 (internal quotation marks
omitted) (alterations in original). Any other rule
“would warp the government’s incentives.” Ibid.
The panel majority’s opinion actually incentivizes
the Government to obtain a witness’s testimony beforehand, then let that witness go with no plan to secure her attendance at trial, knowing that making
some efforts later on to find her will satisfy the court’s
“totality of the circumstances” balancing test. Compare Pet. App. 24a-25a & n.7 (citing Fourth Amendment balancing test cases for how to determine “reasonableness”), with Crawford, 541 U.S. at 67-68 (in the
Confrontation Clause context, the Framers “were
loath to leave too much discretion in judicial hands,”
so “open-ended balancing tests” are disfavored because
“[v]ague standards are manipulable”).
The kind of witness who is the most problematic
for the Government, i.e., the kind of witness most susceptible to faltering in front of a jury, is the kind of

22
witness the Government is most likely to want to get
on record beforehand and not have tested live at trial.
The panel majority’s totality of the circumstances test
allows the Government to do just that. If the Court
permits the Government to satisfy its burden to establish that it made reasonable efforts by pursuing only
some of its promising leads, it would “sanction the government’s procuring depositions of witnesses, especially shaky witnesses, but then discourage attempts
to bring the witness to trial so long as the government
is satisfied with what is in the transcript.” See Mann,
590 F.2d at 367 (footnote omitted). In fact, it’s even
worse under the panel majority’s test, which lowers
the Government’s burden even further if it does a good
job in the court’s estimation of developing the testimony in a deposition. See supra Part I.B.2.
Of course, those are the very witnesses whom defendants most need to cross examine in front of the
jury. Giving the Government a leg up in establishing
unavailability unfairly prejudices defendants’ ability
to test the Government’s most unreliable witnesses
“face to face with the jury,” such that the jury may
“judge by his demeanor upon the stand and the manner in which he gives his testimony whether he is worthy of belief.” Mattox, 156 U.S. at 242-43. Forcing witnesses to testify in front of the jury discourages them
from trying to lie, in a way that a pre-recorded deposition does not, as it puts them face to face with those
who will judge their veracity.
It will be very difficult for defendants to inquire
into the Government’s motivations in its post-release
search, so the panel majority’s test is ripe for manipulation. See United States v. Tirado-Tirado, 563 F.3d

23
117, 125 n.5 (5th Cir. 2009) (“showing that the government acted in good faith from a subjective perspective
is necessary . . . to establish good faith for the purposes
of the unavailability inquiry”) (citing Roberts, 448 U.S.
at 74). The Eleventh Circuit’s framework allows the
Government to game the system by putting a lot of effort into the initial testimony of shaky witnesses,
knowing that it can release them and make perfunctory efforts to locate them later.
*

*

*

Amici provide a boots-on-the-ground perspective
regarding the critical importance of live cross-examination in federal and state courtrooms across the
United States. Their collective understanding reveals
that the issues in this case arise frequently and that
live cross-examination makes a significant difference
for criminal defendants. Because the panel majority’s
opinion requires defendants to somehow prove that it
would be reasonable for the Government to take additional steps to secure its witnesses, and incentivizes
federal and state prosecutors alike to declare the most
critical witnesses “unavailable” for cross-examination
at trial, amici stand together in urging this Court to
grant the petition and reverse—to safeguard their clients’ constitutional rights to confrontation, effective
assistance of counsel, and due process of law.

24
CONCLUSION
This Court should grant the Petition for a Writ of
Certiorari and reverse.
Respectfully submitted,
Thomas C. Goldstein
Counsel of Record
Daniel Woofter
Charles H. Davis
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tg@goldsteinrussell.com
October 18, 2019

